8fi.fi

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Sebastian Leigh Eccleston

— PETITIONER

(Your Name)

FILED
SEP 1 6 2020

vs.

United States of America

- RESPONDENT^office^theclerk

ON PETITION FOR A WRIT OF CERTIORARI TO

Tenth Circuit Court of Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Sebastian Leigh Eccleston
(Your Name)
FCI Fort Dix P.O. BOX 2000
(Address)

.

Joint Base MDL, New Jersey 08640
(City, State, Zip Code)
N/A
(Phone Number)

QUESTION(S) PRESENTED

In Setser v. United States,, this Court construed the third sentence of
18 USC §3584(a) to be inapplicable in cases where a federal sentence is
imposed on a defendant who is not yet serving any other undischarged term of
imprisonment. 132 S.Ct. 1463, 1470 (2012). Nevertheless, when a federal
judgement is silent on whether a sentence is to run concurrently with or
consecutive to a yet-to-be-imposed state sentence, the Bureau of Prisons
uniformly interprets the third sentence of 18 USC §3584(a) to require the
federal sentence to run consecutively to the state sentence, even when the
state judgement in the subsequent case orders the sentences to run
concurrently.
This case presents the following question of exceptional importance to
the criminal justice system:
Whether federal sentencing statutes and the Constitution require the
Bureau of Prisons to execute the sentence of a federal prisoner to
effectuate the subsequent judgement of the state judiciary for
concurrent sentences when the federal judgement is silent on
concurrency?

i

LIST OF PARTIES

££] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Setser v. United States, 132, S.Ct. 1463, 1468 n.l (2012)
United States v. Williams, 46 F.3d 57, 59 (10th Cir. 1995)
Bond v. United States, 134 S.Ct. 2077 (2014)

ii

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

7

INDEX TO APPENDICES
APPENDIX A

10th Circuit Opinion

APPENDIX B

United States District Court District of New Mexico Opinion

APPENDIX C

Clemency Project 2014 Training Memo:
The Interaction of Federal and State Sentences (Jane Anne Murray)

APPENDIX D

APPENDIX E

APPENDIX F

iii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Ponzi v. Fessenden,
6

258 U.S. 254 (1922)
Reynolds v. Thomas,
603 F.3d 1144 (9th Cir. 2010)

6

Setser v. United States,
132 S. Ct. 1463 (2012)

6

United States v. Williams,
46 F.3d 57 (10th Cir. 1995)
Abdul-Malik v. Hawk-Sawyer, 403 F.3d 72 (2nd Cir. 2005)
Barden v. Keohane, 921 F.2d 476 (3rd Cir. 1990)
Bond v. United States, 134 S. Ct. 2077 (2014)
Fegans v. United States, 506 F.3d 1101 (8th Cir. 2007)

6
6
4
6
6

STATUTES AND RULES
3, 6

18 U.S.C. § 3584(a)
18 U.S.C. § 3585

3

18 U.S.C. § 3621(b)

4

28 U.S.C. § 1738

3

U.S. Const, amend. V

3

U.S. Const, amend. X

3

U.S. Const, art. IV, § 1

3

OTHER
BOP Program Statement 5160.05 (Jan. 16, 2003)

4

BOP Program Statement 5880.28 (Feb. 14, 1997)

4

6
Clemency Project 2014 Training Memo:
The Interaction of Federal and State Sentences (Jane Anne Murray)

iv

\

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
lx] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is '

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

lx] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was July
2020__________
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: July 30 , 2020________ } and a copy of the
order denying rehearing appears at Appendix
A
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Due Process Clause states, "No person shall be ... deprived of life,
liberty, and property, without due process of law." U.S. Const, amend. V. The
Full Faith and Credit Clause states, "Full Faith and Credit shall be given in
each State to the public Acts, Records, and judicial Proceedings of every
other State." U.S. Const, art IV, § 1. The Full Faith and Credit Clause
applies to the federal government through a statute passed by the First
Congress, which states:
The records and judicial proceedings of ary court of ary sirh State, Territory or
Ibssession, or copies thereof, shall be proved or adiittad in other courts within the
United States and its Territories and Possessions ty the attestation of the clerk and seal
of the court annexed, if a seal exists, together with a certificate of a judge of the court
that the said attestation is in proper form.
SLdi A:ts, records and judicial proceedings or cepes thereof, so authenticated, shall have
the sane full faith and credit in every court within the United States and its Territories
and Possessions as the/ have ty law or usggs in the courts of such State, Territory or
Ibssessiai from which they are taken.
28 U.S.C. § 1738 (amended from the Act of May 26, 1790, 1 Stat. 122).
The Tenth Amendment reserves to the States authority over areas not
delegated to or prohibited by the federal government: "The powers not delegated
to the United States by the Constitution, nor prohibited by it to the States,
are reserved to the States respectively, or to the people." U.S.Const, amend.X.
The federal statue on imposition of consecutive and concurrent sentences
states in relevant part:
(a) irposition of concurrent or consecutive terms. — If multiple terms of inprisorment
are inposed on a defendant at the sane time, or if a term of inpdLscmmt is inposed on a
defendant who is already subject to an undischarged term of inprisomant, the terms may nm
• concurrently or consecutively, except that the terms nay not run consecutively for an
attempt and for another offense that was the sole objective of the attenpt. MiLtiple terms
of inprisenrant inposed at the same time run concurrently unless the court orders or the
statute mandates that the terms are to run consecutively. Multiple terms of inprisomant
inposed at different tines run consecutively unless the court orders that the terms are to
run concurrently.
18 U.S.C. § 3584(a).
The statute authorizing the Bureau of Prisons (BOP) to calculate pretrial
custody credit against the term of imprisonment provides:
(a) Gnnancement of sentence. — A sentence to a term of inprisonrant ccnnances on the
date the defendant is received in custody awaitirg transportation to, or arrives voluntarily
to camance service of sentence at, the official detention facility at which the sentence
is to be served.
9(b) Oredit for prior custody. — A defendant shall be given credit toward the service of
a term of inprisomant for ary tine he has spent in official detention prior to the date
the date the sentence camances —
(1) as a result of the offense for which the sentence was inposed; cr
(2) as a result of ary other charge for which the defendant was arrested after the
cenmssian of the offense far which the sentence was inposed;
that has not been credited egainst another sentence.
18 U.S.C. § 3585.

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
(continued)
The BOP has statutory authority to designate the place of imprisonment:
(b) Place of inpriscrment. — The Bureau of Prisons shall designate the place of the
prisoner's inprisorrrent. The Bureau nay designate ary available petal or correctional
facility that meets mininun standards of health and habitability established ty the Bureau,
vhether maintained ty the Federal Government or otherwise and vhether within or without the
judicial district in vhibh the person was convicted, that the Bateau determines to be
appropriate and suitable, considering -(1) the resources of the facility contaiplatad;
(2) the nature and circumstances of the offense;
(3) the history and characteristics of the prisoner;
(4) ary statement ty the court that imposed the sentence —
(A) corcemirg the purposes far which the sentence to inpriscnmsnt wes determined to
be warranted; or
(B) recoimandirg a type of penal or correctional facility as appropriate; and
(5) ary pertinent policy statement issued ty the Sentencing Cfcmnission pursuant to
section 994(a)(2) of title 28.
18 U.S.C. § 3621(b). Courts have construed § 3621(b) to permit the BOP to
designate state facilities nunc pro tunc as the place of imprisonment for
service of the federal sentence in order to achieve concurrency with a state
sentence. Barden v. Keohane, 921 F.2d 476, 478 (3rd Cir. 1990). A BOP program
statement adopts and implements Barden's interpretation of 18 U.S.C. § 3621(b):
"State institutions will be designated for concurrent service of a federal
sentence when it is consistent with the intent of the federal sentencing court
or with the goals of the criminal justice system." BOP Program Statement 5160.05
at 4 (Jan. 16, 2003); see also BOP Program Statement 5880.28, 1-32A (Feb. 14,
1997) (referencing Program Statement 5160.05 in the Sentence Computation
Manual).

STATEMENT OF THE CASE
On October 29, 19%, Ehtitioner Sebastian Leigh Ebcleston was sentenced in both Federal and
State courts. Petitioner was sentenced in Federal court at 11 ajn. and in State court two hours
later at 1 p.m. The Federal judgement and camitment was silent as to the yet-to-be-inposad State
sentence. The State judge ordered that the State sentence was to 'tun concurrently with the
Federal Risen Sentence Defendant is now serving."
Following the State sentencing hearing, Ifetitioner was not iirnediately returned to Federal
custody, but taken back to State custody where he retained for approximately sixteen (16) years.
Wnan Itetiticner was brought into Federal custody in March 2011, he requested nunc pro tunc
credit on his Federal sentence far the time served in State prison based on the subsequent
sentencing order by the State jur^e. The Federal Bureau of Prisons denied Petitioner this request
based on Executive Branch discretion and hence, thwarting the order of tie subsequent State
judge's order. Petitioner's Federal sentence is now beiig stacked on top of the State sentence
based on an Executive Ranch of government thwarting a State judicial court order. Phis
separation of powers violation is contrary to the Tenth Anendnent of the United States
Goretitution. Under Satser's reascrdrg, tie B3P mist execute a Federal judgement and sentence
consistently with a State judicial order of concurrency. The rulirg in Setser, carbined with
established principles of federalism, undermines the Tenth Circuit's approval of the BOP practice
of makirg concurrent-or-consecutive decisions contrary to a later-inposed State judgment.
Petitioner's Due Process rights were also violated due that he had no opportunity to
represent his interests in the natter when the Federal BGP made de facto contact with his Federal
judge over thirteen years after Petitioner was sentenced. Petitioner had no Ipgal representation
during these de facto ccnnumcations between the Federal BOP and Petitioner's Federal judge in
violation of Petitioner's Fifth and Sixth Anandrant rights to tine U.S. Constitution to have
counsel to represent him at any sentencing hearing and with the safeguards of due process of law.
These arbitrary proceedings have resulted in a projected release date of February 2036, tan
years mote than what was anticipated by tine sentencing courts. Petitioner's release date should
reflect the intent of both sentencing courts as no court ordered consecutive sentences and
EfetLtioner's projected release date would have been circa 2026.

5

REASONS FOR GRANTING THE PETITION
The Court should GRANT certiorari or Grant, Vacate, and Remand because
Executive Branch creation of de facto consecutive sentences raises important
issues that frequently occur in the federal criminal justice system yet evade
meaningful review (see Appendix _C_). Confusion regarding Federal and State
concurrent sentencing frequently gives rise to errors and injustices. The
present case provides the Court a clear opportunity to re-examine sentencing
statutes in light of Setser and Constitutional considerations.
Prisoners are left with only one avenue of relief as seen in Appendix C.P.7-9
which are rarely granted, and therefore it is up to this Most High Court to do
the heavy lifting in this matter to protect prisoner's rights to due process
of law as well as the State courts' Tenth Amendment protections to be assured
that State judiciary orders are meaningful and effective and not totally
disregarded by the Executive Branch Federal BOP usurping the State judges'
prerogative and sentencing authority.
The Court should grant certiorari to resolve the important question of
whether the Bureau of Prisons acts unlawfully and unconstitutionally when it
executes a federal prison sentence, silent on concurrency, to run consecutively
to a later-imposed state sentence that the state judge has ordered to run
concurrently. In Setser, the Court interpreted § 3584(a) as establishing
presumptions that do not apply when a federal sentence is imposed on a
defendant who is not yet serving an undischarged state sentence. 132 S. Ct. at
1470 ("The last two sentences of § 3584(a) say what will be assumed" in the
situations described in the first sentence; that is, a federal sentence imposed
after or at the same time as another sentence). Yet the BOP has continued to
rely on § 3584(a) to justify its practice in exactly those circumstances where
the state sentence is yet-to-be-imposed, and the-TenthCircuit has continued
to approve that practice based on its pre-Setser precedent.
Following Setser, the BOP's practice of administratively creating consecutive
sentences not only lacks statutory basis, it is constitutionally suspect. An
executive agency's exercise of sentencing authority to create de facto
consecutive sentences creates "serious separation of powers questions." United
States v. Williams, 46 F.3d 57 (10th Cir. 1995); Reynolds v. Thomas, .603 F.3d
1144, 1160-61 (9th Cir. 2010) (Fletcher, J., concurring) (citing Abdul-Malik
v. Hawk-Sawyer, 403 F.3d 72, 76 (2d Cir. 2005), and Fegans v. United States,
506 F.3d liOl, 1104 (8th Cir. 2007)). Additionally, this Court's long-standing
comity principles require mutual respect for state sovereignty in the context
of dual prosecutions. Ponzi v. Fessenden, 258 U.S. 254 (1922). Consistently
with the federalism principles set forth in Bond v. United States, 134 S. Ct.
2077 (2014), this Court should hold that federal sentencing statutes do not
assert federal supremacy over state sentences in these circumstances. By
bringing the BOP's rules into conformance with Setser and Bond, the Court's
resolution of this case would promote respect for the state judge's
determination that concurrency with the federal sentence fully satisfies the
state's penal interests.
The question presented is exceptionally important because the BOP
systemically applies its Program Statements to create de facto consecutive
sentences hundreds of times every year, resulting in centuries of additional
prison time ordered by no judge. Federal prisoners do not have appointed
counsel for administrative proceedings or for civil litigation in federal court,
making it difficult for challenges to BOP Program Statements to be properly
exhausted and presented for judicial review. This case presents the relevant
issues clearly and provides one of the very few opportunities for this Court to
bring federal case law into conformity with Setser's construction of § 3584(a)
and a panoply of basic constitutional principles.
6

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Sebastian Leigh Eccleston

Date:

fOdV&M la£r /V ^

7

